The Honorable Scott S. Harris,
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jerome Skee Smith v. Darrel Vannoy, Warden No. 21-5411

Dear Mr. Harris,

October 4, 2021

We respectfully request, under Rule 30.4 of the Rules of the Court, an extension of ninety days
time to and including January 3, 2022, within which to file the State’s response.
This extension is requested because undersigned counsel, who is responsible for preparation of
the response, has been and continues to be occupied by numerous preexisting deadlines on other
matters, and because undersigned counsel was not the attorney who previously handled this case
in the Court of Appeals. Additionally, the case is currently under review by the Civil Rights
Division regarding matters that may render the petition moot.
Counsel has corresponded with counsel for Petitioner, who indicates no opposition to this
request.
Sincerely,

_/s/ G. Ben Cohen____________
G. Ben Cohen (La. Bar No. 25370)
Chief of Appeals
Orleans Parish District Attorney’s Office
Parish of Orleans
619 South White Street
New Orleans, Louisiana 70119
Telephone: (504) 827-6336
Email: bcohen@orleansda.com

